<html>
<title> - MARKUP OF H. RES. 543, EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES REGARDING THE RECENT SUMMIT HELD BY THE PRESIDENTS OF SOUTH KOREA AND NORTH KOREA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



      MARKUP OF H. RES. 543, EXPRESSING THE SENSE OF THE HOUSE OF 
 REPRESENTATIVES REGARDING THE RECENT SUMMIT HELD BY THE PRESIDENTS OF 
                      SOUTH KOREA AND NORTH KOREA

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JULY 25, 2000

                               __________

                           Serial No. 106-130

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-027                     WASHINGTON : 2000

                                 ______


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate


                            C O N T E N T S

                              ----------                              

                                APPENDIX

                                                                   Page

Bills:

H. Res. 543......................................................     8
Amendment in the nature of a substitute to H. Res. 543...........    11

Additional materials for the record:

A statement from the Honorable Alcee Hastings, a Representative 
  in Congress from Florida.......................................    14

 
                  MARKUP OF H. RES. 543, EXPRESSING
             THE SENSE OF THE HOUSE OF REPRESENTATIVES
                REGARDING THE RECENT SUMMIT HELD 
                       BY THE PRESIDENTS OF 
                      SOUTH KOREA AND NORTH KOREA

                              ----------                              


                         Tuesday, July 25, 2000

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
room H-139, The Capitol, Hon. Doug Bereuter (Chairman of the 
Subcommittee) presiding.
    Mr. Bereuter. The Subcommittee will be in order. I 
apologize to the Members and staff for being late. I went back 
to Rayburn, out of habit, to hold the markup.
    The Subcommittee today meets in open session to consider 
House Resolution 543 relating to the recent heads of state 
summit between South Korean President Kim Dae-Jung and North 
Korean leader Kim Jong-Il.
    The clerk will read the resolution.
    The Clerk. H.R. 543, a resolution expressing the sense of 
the House of Representatives regarding the recent summit held 
by the Presidents of South Korea and North Korea. Whereas on 
June 13, 2000----
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed with, printed in the record in 
full, and open for amendment.
    [The information referred appears in the appendix.]
    Mr. Bereuter. The resolution was introduced on June 29th, 
by the gentleman from Florida, Mr. Hastings, to recognize the 
meeting between the leaders of North Korea and South Korea in 
Pyongyang on June 13 through 16 that marked the first time that 
an elected leader of South Korea had visited the North.
    I would like to turn now to the author of the resolution, 
and then we will hear from Mr. Lantos as well.
    Mr. Hastings.
    Mr. Hastings. I would like to thank you for expediting this 
procedure and I am deeply appreciative for your support and 
recommendations, and we will speak later with reference to the 
amendment as suggested by the Chair. Also, I am always grateful 
for the insight and advice offered by the Ranking Member of the 
Committee.
    Mr. Chairman, June 13, 2000, is a date that will go down in 
history. On this day, as we know, the heads of state of North 
Korea and South Korea, two countries technically engaged in a 
state of war for the last 50 years, met to reconcile their 
differences. This is, in my opinion, a great accomplishment.
    Peace between these two countries would end one of the 
longest and most violent altercations in history. This strife 
has cost billions of dollars and hundreds and thousands of 
lives; and not just Korean lives, but the lives of Americans 
and every other nation that was involved in the military 
battles of that region. The United States has 10,218 soldiers 
listed as missing or prisoners of war due to the Korean 
conflict and, to their credit, families last week received 
closure with reference to 4 of those individuals. It is time 
that the fighting and violence officially end and for peace to 
blossom.
    Mr. Chairman, these are but some of the reasons that I 
introduced this resolution, along with you, Ranking Member Mr. 
Lantos, and my good friend from Florida, Mr. Wexler. As a 
result of the Korean summit, we hope for many changes both in 
Korea and world politics. First, we eagerly anticipate a 
resolution regarding the possible unification between the two 
countries. Second, we expect a full accounting by North Korea 
of all of the missing United States soldiers from the conflict. 
Third, we hope to secure from North Korea a full moratorium on 
the testing of long-range missiles and an immediate freeze in 
North Korea's nuclear program and a suspension of its ballistic 
program. It is our strong hope that the Korean summit will act 
as a gateway to the peace process.
    I have a further statement, but I would ask unanimous 
consent that my full statement be placed in the record, and 
conclude by saying this resolution was introduced to commend a 
step forward in the way of this accomplishment at their summit. 
The summit was not merely a meeting between two heads of state, 
but a portal to future peace agreements. The summit will 
hopefully not only inspire countless peace agreements but will 
help bring the thousands of our soldiers missing in the Korean 
homeland home. South Korea and North Korea's meeting will 
hopefully become a model for other countries to settle their 
differences. I thank you again, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Hastings. Without objection, 
your entire statement will be made part of the record.
    [The information referred appears in the appendix.]
    Mr. Bereuter. I am pleased to turn to the distinguished 
Ranking Member of the Subcommittee, Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. Let me first 
commend my dear friend, Congressman Hastings, for crafting an 
excellent resolution which I strongly support. There is, of 
course, a serious omission in this resolution, which is an 
omission by design, because had this omission not been part of 
the resolution, the resolution would never see the light of day 
and would certainly never pass on the Floor of the House of 
Representatives.
    This major development, the first in half a century between 
North Korea and South Korea, came about, to a very large 
extent, because of the wise and farsighted and intelligent 
policy of this Administration. I want to pay tribute to the 
President and the Vice President and Secretary Albright, 
National Security Adviser Sandy Berger, and particularly former 
Secretary of Defense William Perry, who devoted countless days 
and countless visits to this project both in North and South 
Korea.
    This development is a history-making development, and I 
think it is important for us to at least in this meeting pay 
tribute to the wise and farsighted foreign policy of this 
administration which made this resolution possible and which 
made this meeting between the chiefs of the two Koreas 
possible.
    I think it is important to bear in mind, particularly since 
we are just about an hour past the adjournment of the peace 
negotiations in the Middle East, that while, for the moment, 
those negotiations did not succeed, there again the commitment 
and dedication of the President and his administration to 
bringing about a peaceful resolution of the longstanding 
conflict have been very much in evidence. I don't think we can 
overemphasize the importance both of the President's commitment 
at Camp David to bringing about a peaceful resolution of the 
Israeli-Palestinian dispute and the contribution of his 
administration and him personally to bringing about this 
historic beginning movement to creating the conditions for a 
peaceful resolution of the conflict on the Korean peninsula, 
and I again want to commend my friend.
    Mr. Royce. Mr. Chairman.
    Mr. Bereuter. The gentleman from California, Mr. Royce, the 
Vice Chairman of the Subcommittee on Asia and the Pacific.
    Mr. Royce. I wanted to thank you for moving ahead with this 
resolution and to commend its author, Mr. Hastings of Florida, 
and that is because Mr. Hastings has spent a considerable 
amount of time on the difficult issue of the Korean peninsula.
    There were some positive developments that came out of this 
historic summit, including, on a very basic level, the North's 
recognition that South Korea exists. The odd fiction of 
Pyongyang denying the reality of the Republic of Korea has been 
shattered permanently. I am encouraged by the progress made on 
family visits. The Red Cross has been working on starting this 
process which is a Kim Dae-Jung priority and which is 
recognized in this resolution. This is a real accomplishment, 
the first reunions in 15 years, and it would be good to 
regularize their visits.
    While being hopeful about this summit, we need to be 
realistic. Kim Jong-Il's North Korea is a regime, after all, 
which feeds its military at the expense of its people and 
denies them fundamental human rights. It also still cultivates 
a cult of personality for Kim Jong-Il. It has made little 
fundamental political or economic change, and it maintains a 
deadly million-man army.
    Faced with this, we need to be vigilant for now, and that 
means maintaining the strong U.S. Republic of Korea defense 
relationship and a strong deterrent.
    Mr. Chairman, this January I had the privilege of leading a 
parliamentary exchange group to Seoul, of which you were a part 
of. We are now looking to have the South Korea parliamentarians 
visit Congress early next year. I would hope that Members of 
this Subcommittee would participate in these discussions, and I 
want to thank you for the close attention this Subcommittee has 
paid to our policy toward the Korean peninsula and to the 
developments there.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Royce and Mr. Lantos, for your 
statements. I do join you in hoping that our Subcommittee may, 
on a bipartisan basis, be active in meeting with the members of 
the National Assembly. I assume that the meeting will be in 
Washington?
    Mr. Royce. That is correct.
    Mr. Bereuter. We will make sure that we get advance notice 
to assist you in your efforts as chairman of that revived 
interparliamentary exchange with the National Assembly.
    I am not quite as sanguine about the Administration's 
policy with respect to the Korean peninsula as Mr. Lantos. 
However, I am enthusiastically in agreement about the 
outstanding contributions that Secretary Perry has made in his 
efforts to find out whether the North Koreans are willing to 
take a different track and to bring some bipartisan consensus 
on what the U.S. policy should be with respect to the Korean 
peninsula. He deserves, as does Wendy Sherman, commendations 
for what he has done, and even though he may well be officially 
completed, I know that he continues his efforts.
    I would point out that encouraging the summit meeting in 
North Korea and South Korea is entirely consistent with U.S. 
foreign policy from one Administration to the other. Indeed, 
long before issues such as the DPRK's nuclear and ballistic 
missile programs became a widespread matter of concern, the 
U.S. was calling for direct talks between North Korea and South 
Korea. The North had resisted that. The North has always tried 
to insert itself between the Republic of Korea and the United 
States by insisting that it would engage in direct talks only 
with the United States, thereby passing or bypassing the ROK 
and driving a wedge between ourselves and our ally on the 
peninsula. U.S. policy has always been that we would not allow 
Pyongyang to marginalize the South and that the North must talk 
directly with its neighbors.
    While the recent meeting was important and historic, we 
should be cautious that we not oversell the summit, and the 
gentleman from Florida's resolution does not pass that margin. 
If North Korea is, in fact, sincere in its peaceful overtures, 
that certainly would be a dramatic positive development, and I 
do appreciate the careful way that Mr. Hastings has drafted the 
resolution. However, I think it would be premature to assume 
that the DPRK has irrevocably reformed its behavior. It would 
be naive to believe that a few gestures constitute a revision 
and a change from 50 years of violent confrontational behavior 
and terrorism.
    In reality, if you stop to think about it, the North really 
gave up nothing while receiving huge financial benefits--some 
current and some potential--from the South. Kim Dae-Jung went 
to Pyongyang and promised to open the spigots of foreign 
assistance, although at the North's insistence they are calling 
it ``economic cooperation.'' That is, the South gives and the 
North cooperatively agrees to accept.
    I commend the author of the resolution for including 
language that highlights the continuing problems and concerns 
that we have with the DPRK. I think we should be under no 
illusions; dealing with the North will continue to be 
difficult. Indeed, the day after the conclusion of the summit, 
North Korean radio broadcasts were noting the 50th anniversary 
of the, ``unprovoked U.S. Invasion of North Korea.'' At the 
very least, the recent repetition of such a package of blatant 
lies requires us to be very cautious when approaching this 
pariah state.
    Does the gentleman from North Dakota wish to be recognized?
    Mr. Pomeroy. No.
    Mr. Bereuter. The resolution is open for amendment.
    Mr. Hastings. I have an amendment at the desk.
    Mr. Bereuter. The clerk will read the amendment.
    The Clerk. Amendment in the nature of a substitute.
    Mr. Hastings. Mr. Chairman, I ask that the amendment be 
accepted as read.
    Mr. Bereuter. The amendment will be considered as read, 
printed in the record, and open for amendment.
    [The information referred appears in the appendix.]
    Mr. Bereuter. I ask the gentleman from Florida, Mr. 
Hastings, to explain his amendment.
    Mr. Hastings. Mr. Chairman, the amendment reflects a number 
of minor concerns raised by the State Department, as well as 
some critical concerns raised by you, Mr. Chairman, along with 
some very helpful additions brought to my attention by another 
Member of the Subcommittee, Mr. Ackerman.
    The corrections are as follows. In the first ``whereas'' 
clause, the term ``President'' has been changed to reflect Kim 
Jong-Il's correct title, which is Chairman of the National 
Defense Commission.
    A similar change is made in the first Resolved clause, page 
2, line 2, changing the term ``Presidents'' to ``heads of 
state.''.
    The second ``whereas'' clause has been changed to reflect 
that this was the first meeting of the two heads of state, not 
the first official meeting of any kind between the two Koreas.
    In the fifth ``whereas'' clause, the resolution as 
initially drafted might give the impression that the 
government's withholding of food from the population was 
directly relating to the covert nuclear program. While both 
issues are of serious concern, and while there may be indirect 
linkage, the linkage is not necessarily direct.
    In the third ``resolved'' clause at page 2, line 8, while 
we hope a change of attitude on the part of North Korea has 
taken place, we will need to see much more evidence before we 
give them the benefit of the doubt.
    The seventh ``resolved'' clause is expanded to include the 
full range of concerns regarding the North Korean missile 
activities.
    The final ``whereas'' clause, the amendment recognizes that 
while North Korea already has agreed to freeze its nuclear 
weapons program, considerable uncertainty remains regarding 
whether that government is actually honoring that commitment.
    Mr. Chairman, it is my hope that the amendment in the 
nature of a substitute is acceptable to the Committee, and I 
thank you for your recommendations, and your staff and mine, 
for their tireless efforts in crafting this amendment in the 
nature of a substitute, and I so offer.
    Mr. Bereuter. Thank you, Mr. Hastings and thank you for 
incorporating some of the recommendations of the State 
Department, this Members and Mr. Ackerman.
    Are there Members who wish to be heard on the amendment 
offered by the gentleman from Florida? Seeing none, the 
question is on the amendment in the nature of a substitute.
    Those in favor will say aye.
    All those opposed, no.
    The ayes appear to have it. The ayes do have it.
    Are there further amendments to the resolution? Seeing 
none, the question occurs, then, on agreeing to the resolution.
    As many in favor will say aye.
    Those opposed will say no.
    Mr. Hastings. Mr. Chairman, I respectfully ask that Members 
be permitted 5 days to revise and extend.
    Mr. Bereuter. The amendment is agreed to and, without 
objection, the gentleman's request is granted.
    Without objection, the staff is authorized to make 
technical, grammatical, and conforming changes to the text just 
agreed to.
    Contrary to what I read from my text and consistent with 
the notice, there is no second resolution. The Subcommittee 
stands adjourned.
    Mr. Hastings. Thank you, Mr. Chairman.
    [Whereupon, at 2:28 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             July 25, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6027.001
    
    [GRAPHIC] [TIFF OMITTED] T6027.002
    
    [GRAPHIC] [TIFF OMITTED] T6027.003
    
    [GRAPHIC] [TIFF OMITTED] T6027.004
    
    [GRAPHIC] [TIFF OMITTED] T6027.005
    
    [GRAPHIC] [TIFF OMITTED] T6027.006
    
    [GRAPHIC] [TIFF OMITTED] T6027.007
    
    [GRAPHIC] [TIFF OMITTED] T6027.008
    
    [GRAPHIC] [TIFF OMITTED] T6027.009
    
                                <all>
</pre></body></html>
